No. _______________
IN THE
SUPREME COURT OF THE UNITED STATES
TROY KENDRICK, JR.,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals for the Fifth Circuit
CERTIFICATE OF SERVICE
NOW COMES Assistant Federal Public Defender Samantha J. Kuhn,
court-appointed counsel for Petitioner Troy Kendrick, Jr., and certifies as follows:
1.

The Federal Public Defender appointed to represent Petitioner Troy

Kendrick, Jr., under the Criminal Justice Act, 18 U.S.C. § 3006A, has assigned
Mr. Kendrick’s case to me.
2.

On this 2nd day of April, 2021, I transmitted electronic versions of the

foregoing Motion for Leave to Proceed in Forma Pauperis and Petition for Writ of
Certiorari to the following:
Elizabeth Prelogar, Acting Solicitor General of the United States
SupremeCtBriefs@usdoj.gov
Counsel for the United States of America

3.

The Office of the Solicitor General previously advised undersigned

counsel via email that it agrees to electronic service at the e-mail address identified
above, in light of this Court’s order dated April 15, 2020, related to the COVID-19
pandemic. Accordingly, no paper copies have been mailed to the Solicitor General.
4.

All parties required to be served have been served.
Respectfully submitted this 2nd day of April, 2021.
/s/ Samantha Kuhn
SAMANTHA J. KUHN
Assistant Federal Public Defender
Counsel of Record
Office of the Federal Public Defender
500 Poydras Street, Suite 318
Hale Boggs Federal Building
New Orleans, Louisiana 70130
(504) 589-7930
samantha_kuhn@fd.org

2

